               q                           

                

                                              U.S. ENVIRONMENTAL PROTECTION AGENCY 

                                              OFFICE OF INSPECTOR GENERAL 




                                              Controls and Oversight
                                              Needed to Improve
                                              Administration of EPA’s
                                              Customer Service Lines
                                              Report No. 13-P-0432             September 26, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                             Michael D. Davis
                                                   Jennifer Hutkoff
                                                   Yeon Kim
                                                   Heather Layne
                                                   Vanessa Rodriguez-Moya




Abbreviations

BAC           Business Assistance Center
CSLs          Customer Service Lines
EPA           U.S. Environmental Protection Agency
FTEs          Full-Time Equivalents
FY            Fiscal Year
GAO           Government Accountability Office
GPRA          Government Performance and Results Act
IRIS          Integrated Risk Information System
NLIC          National Lead Information Center
NPCD          National Program Chemicals Division
NRC           National Response Center
OEI           Office of Environmental Information
OIG           Office of Inspector General
SEMS          Superfund Enterprise Management System
SRC           Superfund Reporting Cube




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            13-P-0432
                                                                                                  September 26, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Controls and Oversight Needed to Improve
The U.S. Environmental              Administration of EPA’s Customer Service Lines
Protection Agency (EPA),
                                    What We Found
Office of Inspector General
(OIG), sought to determine          The EPA has a variety of resources—including telephone hotlines, Web
whether the EPA has controls        clearinghouses, and other online reference information—which the OIG has
in place to ensure that its help    categorized as customer service lines (CSLs). The EPA’s 41 external CSLs
desks, hotlines and                 reviewed have oversight practices that vary according to the emphasis placed
clearinghouses are operating        on monitoring, evaluating success, and providing accurate information to the
in an efficient and effective       public. There are no specific EPA or governmentwide guidances or standards
manner. Members of the              for operating and managing CSLs. Without guidance or procedures to ensure
public and other interested         consistent oversight of CSLs, there is limited assurance that the
individuals searching the           approximately $5.7 million of funds used to operate 30 of the CSLs in
EPA’s website for a telephone       fiscal year 2011 achieved the desired results (cost not available for 11 CSLs).
number to call for help with an
environmental problem can           CSL information on the agency’s website is incomplete. The agency lacks
find dozens of different help       specific guidance regarding the identification, presentation and management
desks, hotlines and                 of CSL information on the Web. As a result, the quality of customer service is
clearinghouses.                     negatively affected. In addition, the EPA’s regions and program offices do not
                                    properly identify, present and manage CSL information on the Web;
This report addresses the           therefore, customers using the Internet may not be able to access relevant
following EPA themes:               environmental information in a timely manner.

 Making a visible difference        Recommendations and Planned Agency Corrective Actions
  in communities across the
  country.                          We recommend that the EPA’s Deputy Administrator develop agencywide
 Expanding the conversation        guidance for the monitoring and oversight of EPA CSLs, and review external
  on environmentalism.              CSLs to determine their cost efficiency. We also recommend that the
 Working toward a                  Deputy Administrator develop guidance for the identification, presentation and
  sustainable future.               management of CSL information on the Internet.

                                    The EPA agreed with the draft report’s message that the agency needs to
                                    consider an appropriate policy response to improve the administration of
                                    CSLs. The agency is seeking input from the assistant, associate and regional
                                    administrators in order to develop and implement necessary improvements.
                                    We agree with the agency’s actions; however, milestone dates for the
                                    development of the policy and improvements of CSLs are needed. As a result,
                                    the recommendations are unresolved.

                                     Noteworthy Achievements
                                    CSLs in some regions were effectively consolidated. For instance, all of
                                    Region 2’s citizen complaints are consolidated into its headquarters citizen
                                    complaint database, regardless of how the complaints were received by the
For further information,            region. To combine resources, Region 3 has consolidated its Regional Public
contact our public affairs office   Information Center into an existing contract that includes the region’s library,
at (202) 566-2391.
                                    hotline, legal library and Superfund records room. To avoid the administrative
The full report is at:              burden associated with awarding and managing two contracts instead of one,
www.epa.gov/oig/reports/2013/       the EPA plans to consolidate the operations of the Toxic Substances Control
20130926-13-P-0432.pdf              Act Hotline and the “Lead Hotline” of the National Lead Information Center.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460

                                                                                   THE INSPECTOR GENERAL




                                          September 26, 2013

MEMORANDUM

SUBJECT:	 Controls and Oversight Needed to Improve
          Administration of EPA’s Customer Service Lines
          Report No. 13-P-0432

FROM:	        Arthur A. Elkins Jr.

TO:	          Bob Perciasepe
              Deputy Administrator

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion
of the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit-resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public.
If your response contains such data, you should identify the data for redaction or removal, along with
corresponding justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov, or
Michael Davis, director of Efficiency Audits, at (513) 487-2363 or davis.michaeld@epa.gov.
Controls and Oversight Needed to Improve                                                                                         13-P-0432
Administration of EPA’s Customer Service Lines


                                  Table of Contents
Chapters
   1    Introduction ........................................................................................................       1


                Purpose ......................................................................................................      1        

                Background .................................................................................................        1        

                Noteworthy Achievements ..........................................................................                  1

                Scope and Methodology .............................................................................                 2

                Prior Reports ..............................................................................................        3        


   2    Agency Administration of Customer Service Lines Lacks Consistency......                                                     5


                Federal Law, Initiatives and Executive Order Provide Overarching
                   Principles for CSL Management and Operation .....................................                                5

                Inconsistent Administration of CSLs ...........................................................                     6

                High Dollar Value Assigned to the Overall Operation of CSLs....................                                    10 

                Conclusion ..................................................................................................      11 

                Recommendations .....................................................................................              11        

                Agency Comments and OIG Evaluation ...............................................                                 12 


   3	    Customer Service Line Information on the Agency’s Website 

         Is Incomplete ……………………………….………………………………………...                                                                             13 
           

                Federal Initiatives and EPA Policies Encourage Simple and Swift
                  Access to CSL Information ......................................................................                 13 

                EPA Is Not Aware of Its Overall CSL Universe ..........................................                            14 

                Guidance Is Needed for the Identification, Presentation and Management
                  of the Agency’s CSL Information on the Web ......................................                                15

                Conclusion ..........................................................................................              16

                Recommendation ...............................................................................                     17

                Agency Comments and OIG Evaluation ...............................................                                 17


   Status of Recommendations and Potential Monetary Benefits……………………..                                                             18




Appendices
   A    Appendix Glossary of Terms ………………………………………………………..                                                                         19 


   B-1 Monitoring Y/N – 41 External CSLs………………………………………………….                                                                       21 


   B-2 Monitoring Y/N – 21 External CSLs Operated by Contractors………………….                                                            23 




                                                           ‐continued-
Controls and Oversight Needed to Improve                                                                                          13-P-0432
Administration of EPA’s Customer Service Lines




   B-3 Monitoring Y/N – 20 External CSLs Non-Contractor Operated .....................                                              24 


   C     Evaluating Success Y/N – 41 External CSLs ...................................................                              25 


   D     Ensuring Accuracy of Information Y/N – 41 External CSLs ...........................                                        27


   E-1 Cost Per Inquiry – 41 External CSLs ...............................................................                          29


   E-2 Cost Per Inquiry – 21 CSLs Operated by Contractors ...................................                                       31 


   E-3 Cost Per Inquiry – 20 CSLs Non-Contractor Operated ..................................                                        32 


   E-4 Summary Costs of 21 CSLs Operated by Contractors ...................................                                         33 


   E-5 Summary Costs of 20 CSLs Non-Contractor Operated .................................                                           33 


   F     External CSLs Listed on EPA’s National Website .........................................                                   34 


   G-1 Cost of 18 External CSLs Not Listed on EPA’s National Website .................                                              36 


   G-2 Two External CSLs Not Readily Available on EPA Regional Websites .......                                                     37 


   H     Agency Comments on Draft Report .................................................................                          38 


   I     Distribution .........................................................................................................     40 

                                 Chapter 1

                                 Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector
            General (OIG), sought to determine whether the EPA has controls in place to
            ensure that its help desks, hotlines and clearinghouses are operating in an
            efficient and effective manner. Members of the public or other interested
            individuals searching the EPA’s website for a telephone number to call for help
            with an environmental problem can find dozens of different help desks,
            hotlines and clearinghouses.

Background
            The OIG has categorized the EPA’s telephone hotlines, resource information
            provided through clearinghouses on the Web, and other online reference
            information provided to the public as customer service lines (CSLs). Members
            of the public or other interested individuals searching the EPA’s website for
            reference information or a telephone number to call for help with an
            environmental problem can find dozens of different CSLs, ranging from the
            Acid Rain Hotline to the Wetlands Information Hotline, to the EPA’s grants
            and fellowships online information.

            The EPA’s hotlines are operated by employees, contractors, or partner
            agencies. Times of operation vary from 24 hours per day, 7 days per week, to
            only during regular business hours. Stakeholders who call hotlines will get an
            immediate response to their concerns, or they can leave a message.

            Clearinghouses offer information to stakeholders, usually as resource
            information, online information, or as data on specific topics defined by the
            EPA. Clearinghouses are operated by EPA employees and contractors.

            The EPA has also partnered with entities such as the country of Mexico,
            universities, and other federal agencies such as the U.S. Department of
            Transportation to provide environmental information to the public.

Noteworthy Achievements
            CSLs in some regions were effectively consolidated. For instance, all of
            Region 2’s citizen complaints are consolidated into its headquarters citizen
            complaint database, regardless of how the complaints were received by the
            region.


13-P-0432                                                                                     1
            To combine resources, Region 3 has consolidated its Regional Public
            Information Center into an existing contract that includes the region’s library,
            hotline, legal library, and Superfund records room.

            To avoid the administrative overburden inherent in awarding and managing
            two contracts instead of one, in 2013 the EPA plans to consolidate the contract
            operations of the Toxic Substances Control Act Hotline and the “Lead Hotline”
            of the National Lead Information Center (NLIC). Both hotlines will have the
            same management controls, and the same person will oversee both CSLs.
            The two hotlines are currently administered by the same contractor under two
            separate contracts.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and
            perform the audit to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our review
            objectives. We believe that the evidence obtained provides a reasonable basis
            for our findings and conclusions based on our audit objective.

            We performed the audit from July 2012 through July 2013. We reviewed fiscal
            years (FYs) 2011 and 2012 Federal Managers’ Financial Integrity Act
            Assurance letters from the EPA’s Office of Environmental Information (OEI),
            Office of the Administrator, and Office of the Chief Financial Officer. We
            determined whether those letters identified any weaknesses related to controls
            for managing help desks, hotlines and clearinghouses. The letters did not
            identify any such weaknesses.

            We also reviewed the following laws, memorandums, executive orders, and
            plans to obtain an understanding of the overarching principles that can be
            applied to the management and operation of CSLs:

                 E-Government Act of 2002. 

                 Transparency and Open Government, January 2009. 

                 FY 2011–FY 2015 EPA Strategic Plan. 

                 Presidential Memorandum, Accountable Government Initiative, 

                  September 2010.
                Executive Order 13571—Streamlining Service Delivery and Improving
                  Customer Service, April 2011.
               	 Executive Office of the President, Memorandum M-11-24,
                  Implementing Executive Order 13571 on Streamlining Service Delivery
                  and Improving Customer Service, June 2011.
               	 Executive Order 13576—Delivering an Efficient, Effective, and
                  Accountable Government, June 2011.


13-P-0432                                                                                      2
                   Government Performance and Results Act (i.e., GPRA Modernization
                    Act of 2010).
                   The EPA’s Customer Service Plan, December 2011.

            We reviewed the EPA’s Web Content Types and Review Procedure to better
            understand the governance of the agency’s Web topics, and reviewed the
            EPA’s Contracts Management Manual to obtain an understanding of the
            contract requirements for CSLs.

            We performed the following steps to select samples of CSLs for review, and to
            determine the extent of the EPA’s management of customer service lines:

                  Reviewed and determined the CSLs available to the public on the
                   EPA’s website.
                 Obtained a listing of the CSLs under the authority of the EPA regions
                   and program offices.
                 Reconciled CSLs on the EPA’s website to ones provided by the regions
                   and program offices.
                 Determined the costs of the CSLs that were not listed on the website.
                 Analyzed information provided by the regions and program offices to
                   determine whether the agency:
                       o	 Monitors CSLs.
                       o	 Ensures accuracy of information provided to the public.
                       o	 Evaluates the success of CSLs.
                       o	 Considers consolidation.
                	 Determined volumes of activity and costs to operate CSLs. We
                   calculated the CSL cost per inquiry by dividing annual cost by the
                   annual volume, based on the information that the EPA provided for FY
                   2011:
                       o	 Annual costs of a CSL—most CSL costs were provided by
                           fiscal year, but some CSLs simply stated the cost annually.
                       o	 Volume unit of inquiries vary (e.g. telephone calls, emails,
                           websites access).
                 Interviewed Web content coordinators to determine the cause of data
                   inconsistencies.
                	 Interviewed staff responsible for managing CSLs to determine how
                   they monitor and evaluate CSLs, and to ensure that accurate
                   information is provided to the public.

Prior Reports
            On November 10, 2009, the OIG issued Project No. 10-P-0027,
            Congressionally Requested Inquiry into EPA’s Response to a Report of a
            Leaking Well in North Carolina and the National Response Center Hotline.
            We reported that EPA’s Region 4 emergency hotline is programmed to forward
            all incoming calls during nonworking hours to the National Response Center
            (NRC) telephone system, which is staffed at all times. Operated by the U.S.

13-P-0432                                                                                   3
            Coast Guard, the NRC is the sole national point of contact for reporting all oil,
            chemical, radiological, and biological discharges into the environment. The
            OIG found that the NRC received voicemails about the leaking North Carolina
            well, but NRC staff took no actions to inform the EPA about those calls. Our
            findings were presented to the U.S. Department of Homeland Security’s Office
            of Inspector General for action.

            We also reviewed findings from the U.S. Government Accountability Office
            (GAO) through Report No. GAO-06-270, Federal Contact Centers:
            Mechanism for Sharing Metrics and Oversight Practices along with Improved
            Data Needed, February 2006. The report found that mandating specific
            guidance and increased sharing of successful practices for managing contact
            centers may help agencies improve their ability to write and oversee contracts
            for these centers, and avoid needless duplication of effort.




13-P-0432                                                                                       4
                                 Chapter 2

            Agency Administration of Customer 

             Service Lines Lacks Consistency 

            To maximize efficient customer service and achieve outcomes, the EPA needs
            consistent administration of CSLs. The EPA’s 41 external CSLs reviewed have
            oversight practices that vary according to the emphasis placed on monitoring,
            evaluating success, and providing accurate information to the public. When
            CSLs are administered by a contractor, the EPA uses the contract statement of
            work to oversee contractor activities. However, when CSLs are administered
            by EPA staff, there is no specific guidance available for the operating,
            oversight and management of CSLs.

            Federal initiatives such as the 2002 E-Government Strategy and Executive
            Order 13571 provide overarching principles that can be applied to the
            management and operations of CSLs. Without guidance or procedures in place
            to ensure consistent oversight of CSLs, there is limited assurance that the
            approximately $5.7 million of funds used to operate 30 of the CSLs in FY 2011
            achieved the desired results (cost not available for 11 CSLs).

Federal Law, Initiatives and Executive Order Provide Overarching
Principles for CSL Management and Operation

            The federal law, initiatives and executive order noted below provide
            overarching principles that can be applied to CSL management and operations.

            The President’s 2002 E-Government Strategy identified a governmentwide
            initiative that addresses the elimination of redundant systems and improving
            the government’s quality of customer service for citizens and businesses.

            Executive Order 13571, Streamlining Service Delivery and Improving
            Customer Service (April 2011), states that the public deserves competent,
            efficient and responsive service from the federal government. In addition, this
            order requires executive departments and agencies to continuously evaluate
            their performance in meeting this standard and work to improve it.
            Specifically, Section 2 of Executive Order 13571 details the following
            requirements:

               	 Section 2 (c) requires agencies to set clear customer service standards
                  and expectations, including, where appropriate, performance goals for
                  customer service required by the GPRA Modernization Act of 2010
                  (Public Law 111-352).




13-P-0432                                                                                     5
               	 Section 2 (d) requires agencies to improve the customer experience by
                  adopting proven customer service best practices and coordinating
                  across service channels (such as online, and via telephone, in-person,
                  and mail services).
               	 Section 2 (e) requires agencies to streamline processes in order to
                  reduce costs and accelerate delivery, while reducing the need for
                  customer calls and inquiries.
               	 Section 2 (f) requires the identification of ways to use innovative
                  technologies to accomplish the customer service activities above;
                  thereby lowering costs, decreasing service delivery times, and
                  improving the customer experience.

            The GPRA Modernization Act of 2010 has a section that outlines certain
            requirements for agency performance plans. Specifically, Section 3 (b)(6)
            requires that agencies establish a balanced set of performance indicators to be
            used in measuring or assessing progress toward each performance goal;
            including, as appropriate, customer service, efficiency, output, and outcome
            indicators.

            The EPA’s Contracts Management Manual outlines the requirements for
            management of contracts. Section 11.1.4 says the statement of work is the
            central part of the procurement. The statement of work is a written description
            of the contractual requirements for supplies or services that the government
            requires from the contractor. It delineates the tasks, describes essential
            technical needs or requirements that the contractor must fulfill, provides the
            schedule the contractor must meet, sets forth required deliverables, and
            provides the standards that the government will use to determine that the
            requirements have been met.

Inconsistent Administration of CSLs

            The EPA’s 41 external CSLs reviewed have oversight practices that vary
            according to the emphasis placed on monitoring, evaluating success, and
            providing accurate information to the public.

            Monitoring

            While EPA monitors 34 of 41 CSLs (82.93 percent) (appendix B-1), the
            methods used by contractors and the EPA staff vary widely (table 1; and
            appendices B-2 and B-3).




13-P-0432                                                                                     6
            Table 1: CSLs administered by contractors and EPA staff
                         Monitoring of contractor operated CSLs
                             No. of      Being monitored?          Percentage to 20
                             CSLs              Y/N                   or 21 CSLs
                               21                  Y                    100.00%
             Subtotal          21                  -                    100.00%
                                Monitoring of CSLs by EPA staff
                               13                  Y                     65.00%
                                7                  N                     35.00%
             Subtotal          20                                       100.00%
                Total          41
            Source: OIG analysis of the EPA’s response to the OIG questionnaire.
            See appendices B-2 and B-3.


            CSLs Operated by Contractors

            The EPA uses contractors to operate 21 out of 41 CSLs and monitors the 

            inquiries of those 21 (appendix B-2). When a contractor is involved, the 

            monitoring methods used by EPA vary. Monitoring methods include: 


                    Customer satisfaction surveys.
                    Monthly reports for tracking and monitoring, statistics and trends,
                     deliverable reporting, service-level agreements, and system
                     reporting.
                    Metrics for answering and responding to calls.

            Example of the EPA Monitoring a Contractor-Operated CSL

            The agency’s NLIC is administered by a contractor. The purpose of the 

            NLIC is to answer the public’s questions about lead poisoning prevention 

            and to distribute technical information. The National Program Chemicals 

            Division (NPCD) of the Office of Chemical Safety and Pollution 

            Prevention monitors the NLIC using the following methods: 


                    Contractor’s weekly, monthly and annual reports.
                    Emails between the NPCD’s project officer and the contractor.
                    Anonymous telephone calls from the NPCD to the hotline to test the
                     accuracy of information provided by the contractor.




13-P-0432                                                                                  7
                CSLs Operated by EPA Staff

                EPA staff operates 20 of 41 CSLs and uses various methods to monitor
                CSL activities. Examples include:

                      Complaint follow-ups by media enforcement branches.

                      Call logs. 

                      Performance standards of hotline staff.

                      Tracking systems. 

             
                Example of the EPA Monitoring a Staff-Operated CSL

                Region 3’s Business Assistance Center (BAC) hotline is administered by
                EPA staff. The purpose of the Region 3 BAC is to help small- and medium-
                sized businesses achieve environmental compliance. Region 3 monitors the
                operation of its BAC through:

                      Hotline staff performance standards.

                      Volume of calls.

                      Response time. 


                CSLs That Are Not Formally Monitored

                The activities for seven of the 20 CSLs were not formally monitored
                (appendix B-3).

            Evaluating Success

            The EPA did not evaluate the success for 31 (75.61 percent) of the 41 CSLs
            reviewed (appendix C). When the EPA evaluated the success of 10 CSLs,
            varying and limited methods and several different criteria were used, including:

                	 Reports that provide statistics on: 1) value-added telephone calls,
                   telephone transfers, email responses, visitors, and publications mailed;
                   2) the amount and kind of requests received, when they were received,
                   and when a response was provided; and 3) the number of spill
                   notifications received.
                	 Tracking follow-up by media enforcement branches to complaints
                   received.

                 Metrics on tracking hotline usage. 

                 Analyses of costs, tasks and open tickets. 

                 Assistant administrator’s program review and status reports. 

                 Surveys to rank user satisfaction, the reference desk, and 

                   support/customer service.




13-P-0432                                                                                      8
               Example of a CSL for Which the EPA Evaluates Success

               The EPA’s Integrated Risk Information System (IRIS) is a centralized
               repository of information that the public can use to obtain information on
               chemicals in the IRIS database and chemicals currently undergoing IRIS
               assessment. To evaluate the success of the IRIS hotline, reports produced
               on a monthly, quarterly, and fiscal-year basis provide statistics on requests
               received.

               CSLs Not Evaluated for Success

               The EPA does not evaluate the success for 31 CSLs. Comments returned
               from operators of those non-evaluating CSLs provided the following
               feedback about evaluating success:

                      No such analysis or metrics are used. No funding is available.
                      There have been no studies performed to analyze or evaluate the
                       management and/or success of the hotline.
                      The success of a hotline call is gauged by anecdotal feedback.

            Providing Accurate Information

            Of the 41 CSLs reviewed, 33 (80.49 percent) monitored the accuracy of
            information provided to the public and stakeholders (appendix D).
            However, the methods used to monitor accuracy vary and include:

                  Analyses and metrics.

                  Customer responses. 

                  Meetings and routine discussions. 

                  EPA technical experts. 

                  Reports. 


               Example of a CSL for Which the EPA Monitors the Accuracy of
               Information Provided

               The purpose of the EPA’s Superfund Enterprise Management System
               (SEMS) Reference Desk is to provide customer support for the applications
               that make up the systems integration project for the Office of Superfund
               Remediation and Technology Innovation. The SEMS Reference Desk also
               provides support for external customers by handling Freedom of
               Information Act requests and information request line inquiries.

               The SEMS Reference Desk follows up with customers to ensure their
               issues or questions have been addressed and to notify them if follow-up re-
               testing is needed. These contacts with customers are also recorded in the
               SEMS User Request System. The Superfund Reporting Cube (SRC) also
               sends out a link to a survey after the SRC completes a customer’s request.

13-P-0432                                                                                      9
               The survey ranks the accuracy of response and the customer service
               provided by the SRC.

               CSLs for Which the EPA Does Not Monitor the Accuracy
               of Information Provided

               For eight CSLs that did not monitor to ensure the accuracy of information,
               the EPA provided the following responses to the question: “Are there any
               analyses and/or metrics used to ensure information given to customers
               from the help desks, hotlines, and clearinghouses is accurate and that good
               customer service is provided?”

                     There are no analyses and/or metrics used to track the accuracy of
                      information.
                    Funding is at the absolute lowest level possible and no resources
                      can be spared to generate this information.
                   	 We do not send a survey to requestors asking for
                      feedback/evaluation of our assistance in obtaining library materials.
                      We do get some unsolicited responses thanking us for our help, but
                      nothing is prepared or solicited following a routine or structured
                      format.

High Dollar Value Assigned to the Overall Operation of CSLs
            Based on the EPA’s data, the cost to operate 30 of the 41 CSLs in FY 2011
            was approximately $5.7 million (table 2 and appendix E-1). The highest cost
            per inquiry is for CSLs operated by contractors. The lowest cost per inquiry is
            for the CSLs operated by EPA staff (appendices E-2 and E-3).

            The 41 CSLs handle approximately 367,586 inquiries annually. Table 2 shows
            that 38 of the 41 CSLs provided the volume of inquiries handled annually;
            three did not. The CSLs operated by contractors showed a higher volume of
            activity (87.03 percent) (appendix E-4). The CSLs operated by non-
            contractors showed a lower volume of activity (12.97 percent) (appendix E-5).

            We were unable to determine the costs per inquiry for 13 of the 41 CSLs. For
            eight of the CSLs, the EPA provided only full-time employees and senior
            environmental employees. For two of the CSLs, the EPA provided no cost
            data. For two of the CSLs, the EPA did not provide volume data. For one
            CSL, the EPA provided neither volume nor costs data. The overall operational
            cost of the EPA’s CSLs in FY 2011 would have been higher had all CSL
            operators returned cost information to us.




13-P-0432                                                                                     10
Table 2: Costs of CSLs operated by contractors and non-contractors
                                                     Volume
                                        No. of       per year          Percentage   FY 2011 cost      Percentage
            Description                 CSLs         FY 2011            of volume                       of cost

                             Costs of 21 CSLs operated by contractors
CSLs provided volume and costs       19       319,901        87.03%                     $ 4,348,901      75.74%
CSLs no volume provided                       2    Not provided               N/A          953,650       16.61%
  Subtotal CSLs operated by                  21         319,901            87.03%        5,302,551       92.35%
   contractors

                             Costs of 20 CSLs non-contractor operated
CSLs provided volume and costs         9        19,071         5.19%                    $439,478          7.65%
CSLs provided SEEs and FTEs,           8        27,698         7.53%                Not provided             N/A
not costs
CSLs no costs provided                 2           916         0.25%                Not provided            N/A

CSL provided neither volume                   1    Not provided               N/A   Not provided             N/A
nor costs
 Subtotal CSLs operated by                   20          47,685            12.97%          439,478        7.65%
   non-contractors
Total                                        41         367,586           100.00%   $    5,742,029      100.00%
Source: OIG analysis of the EPA’s response to the OIG questionnaire.



Conclusion
                 The EPA is spending approximately $5.7 million to operate 30 of 41 external
                 CSLs. Without guidance to ensure the agency has procedures in place to ensure
                 consistent administration of CSLs, there is limited assurance that the agency
                 wisely spends government funds.

Recommendations
                 We recommend that the Deputy Administrator:

                     1.	 Develop agencywide guidance for the monitoring and oversight of the  
                         agency’s CSLs.

                     2.	 Review the EPA’s external CSLs to determine their cost efficiency.




13-P-0432                                                                                                  11
Agency Comments and OIG Evaluation
            The EPA agreed with the draft report’s message that the agency needs to
            consider an appropriate policy response to improve the administration of CSLs.
            The agency is seeking input from the assistant, associate and regional
            administrators in order to develop and implement necessary improvements.

            The EPA stated that the administrative policy for CSLs is not a current,
            ongoing function of the Office of the Administrator, and the agency
            acknowledged the OIG for recognizing this and recommending such policy
            now. The agency further stated that consideration of any policy must be
            supported by information, analysis and experiences of the numerous EPA
            offices with direct responsibility for CSLs. Accordingly, the agency sent a
            memorandum to all assistant, associate and regional administrators asking
            them to respond by September 18, 2013, to a request for information to prepare
            an appropriate and informed response to the significant issues raised by the
            OIG. After the information is received, the agency will develop and
            implement the necessary improvements to the EPA’s administration of CSLs
            and their Web presence.

            The OIG agrees with the agency’s actions; however, milestone dates are
            needed for the development of the policy and improvements of CSLs.




13-P-0432                                                                                    12
                                 Chapter 3

             Customer Service Line Information 

            on the Agency’s Website Is Incomplete 

             CSL information on the agency’s website is incomplete. Eighteen of the EPA’s
             CSLs with information available to the public were not listed on the agency’s
             “Hotlines and Clearinghouses” (www.epa.gov/epapages/epahome/hotline.htm)
             Web page, which had information on 44 external CSLs. In addition, the agency
             did not provide any information about 18 of 44 of the CSLs listed on the Web
             page. Initiatives such as the 2009 Transparency and Open Government
             presidential memorandum and the EPA’s FY 2011-2015 Strategic Plan provide
             overarching principles that encourage the public’s access to Web-based
             customer service information.

             However, the agency lacks specific guidance regarding the identification,
             presentation and management of CSL information on the Internet. As a result,
             the quality of customer service is negatively affected. The EPA’s regions and
             program offices also do not properly identify, present and manage Web-based
             CSL information to customers; therefore, customers using the Internet may not
             be able to access environmental information in a timely manner.

Federal Initiatives and EPA Policies Encourage Simple and Swift
Access to CSL Information
             A number of federal initiatives encourage access to customer service
             information. The January 21, 2009, presidential memorandum entitled
             Transparency and Open Government states:

                    Transparency promotes accountability and provides information
                    for citizens about what their Government is doing…
                    [Government will] take appropriate action, consistent with law
                    and policy, to disclose information rapidly in forms that the
                    public can readily find and use. Executive departments and
                    agencies should harness new technologies to put information
                    about their operations and decisions online and readily available
                    to the public.

             According to the EPA’s Web Content Types and Review Procedure, the EPA’s
             website is a fundamental communication tool for every agency program and
             region. With the fast-paced growth of the EPA’s website, effective
             management of information is essential. Distinguishing content types and
             identifying appropriate review schedules are critical to keeping the website
             current. Otherwise, website visitors may have difficulty locating information or
             determining what information accurately describes current EPA policy
             decisions and activities.
13-P-0432                                                                                       13
            According to the EPA’s FY 2011-2015 Strategic Plan cross-cutting strategy—
            “Expanding the conversation on environmentalism”—the EPA will build
            stronger working relationships throughout the country, particularly with tribes,
            communities of color, economically distressed cities and towns, young people,
            and others. To accomplish this strategic plan goal, the EPA will:
               	 Educate and empower individuals, communities, and agency partners in
                  decision-making through public access to environmental information
                  and data.
               	 Address barriers to improve engagement with historically under-
                  represented sectors of the nation.
               	 Use traditional and new media to inform and educate the public about
                  agency activities and provide opportunities for community feedback.
               	 Encourage citizens to understand the complexities and impacts of
                  environmental issues and environmental stewardship, and provide
                  avenues and tools that enhance their ability to participate in processes
                  that could affect them.

EPA Is Not Aware of Its Overall CSL Universe
            As of October 2012, the “Hotlines and Clearinghouses” Web page on the
            EPA’s national website contained information on 44 external CSLs. When
            requested, the agency did not provide information regarding 18 (one region and
            17 headquarters program offices and non-EPA offices) of the 44 CSLs listed
            (see appendix F). Since each program office and region is responsible for
            managing its CSLs, the EPA is not aware of its overall CSL universe. The
            EPA’s Web content coordinator explained that the agency most likely did not
            provide the information because the EPA was unable to specifically identify
            certain CSLs as such. The Web content coordinator also said the agency needs
            to take a closer look at all of its website content to specifically identify whether
            the content is actually related to CSLs. For example, the agency might want to
            create commonly understood definitions for hotlines and clearinghouses.

            The agency also provided the OIG with information on 21 other external CSLs
            (12 regions and 9 headquarters program offices) that were not listed on the
            “Hotlines and Clearinghouses” Web page. The agency provided cost
            information for 13 of the 18 external CSLs. In FY 2011, costs for operating
            those 13 CSLs were approximately $835,403 (appendix G-1).

            Other than Region 10, the EPA’s “Hotlines and Clearinghouses” Web page did
            not list regional CSL information. The EPA’s regions assumed that the intent
            of Web page was to list external CSLs that only had a national focus. However,
            no further explanation was provided concerning why Region 10 was on the
            Web page and other regions were not. The agency did provide information that
            showed 12 external CSLs being operated in various regions (table 3).
13-P-0432                                                                                          14
            Table 3: Regions with external CSLs excluded
            from the national Web page

                     Region                  No. of external CSLs
             Region 1                                  1
             Region 2                                  3
             Region 3                                  4
             Region 6                                  1
             Region 7                                  2
             Region 8                                  1
             Total                                    12
            Source: Information provided by EPA regions.


Guidance Is Needed for the Identification, Presentation and
Management of the Agency’s CSL Information on the Web
            The agency lacks specific guidance regarding the identification, presentation
            and management of CSL information on the Web. Classification of CSLs (such
            as defining hotlines and clearinghouses) is not clear. Access paths to CSLs on
            the EPA’s national and regional Web pages vary. The promotion of regional
            CSLs on the “Hotlines and Clearinghouses” national Web page is also unclear.
            One region stated that the understanding was that putting things on the
            “Hotlines and Clearinghouses” Web page was a national program
            responsibility rather than a regional activity, and that the page appeared to
            focus on addressing national issues instead of regional issues.

            The EPA also lacks a specific Web page content-review structure for CSLs.
            Interview responses varied when asked, “How are things removed from the
            EPA’s ‘Hotlines and Clearinghouses’ Web page?” One agency staff member
            said the program office would remove items upon request. Another staff
            member said the person managing the hotline is entrusted with determining
            whether updates are needed or information should be removed. A third staff
            member said removing content from the website is the responsibility of the
            Web content coordinator.

            In December 2012, the EPA’s national Web infrastructure manager said the
            agency had deleted the link from its home page to the national “Hotlines and
            Clearinghouses” Web page due to the fact that so many of the links on the
            hotline page were broken. Agency staff said data elements from the “Hotlines
            and Clearinghouses” Web page are now available on the agency’s “A–Z
            Index” page. Our search of EPA program office hotline information through
            the “A–Z Index” Web page (http://www.epa.gov/epahome/quickfinder.htm)
            revealed that information on hotlines is not always mentioned on program
            office pages. Of the 10 topic areas reviewed, hotline information was easily
            found on only four of the program office Web pages (table 4).




13-P-0432                                                                                    15
             Table 4: Hotline information mentioned on program office Web page
                                            Topic                                          Yes/No
               1.   Acid Rain                                                                No
               2.   Lead                                                                    Yes
               3.   Radon                                                                   Yes
               4.   Superfund                                                                No
               5.   Pesticides                                                              Yes
               6.   Drinking Water                                                          Yes
               7.   Ambient Monitoring Technology Information Center                         No
               8.   Center for Exposure Assessment Modeling                                  No
               9.   Emission Measurement Center                                              No
              10.   Energy Star                                                              No
             Source: OIG analysis of information on www.epa.gov/epahome/quickfinder.htm.


            As of January 2013, two out of 12 of regional CSLs identified
            by the EPA are not readily available to the public using regional websites
            (appendix G-2). We found that each regional site contains a “Contact Us” link,
            which takes EPA stakeholders to regional CSL contact information. However,
            not every regional website otherwise hosts the same type of information. For
            example, Region 4 contained an easy-to-access directory of Region 4 offices
            and division telephone numbers, in addition to emergency contacts and state
            agency telephone numbers. Other region’s websites only contained the main
            telephone numbers for their respective regions. All regional websites contained
            at least one CSL number readily available to the public.

Conclusion
            Information currently available on the agency’s website does not reflect
            complete and relevant information concerning CSLs administered by the
            agency. In December 2012, the EPA deleted the “Hotlines and
            Clearinghouses” link from its home page, which made CSL information less
            accessible to the public. The EPA’s Web pages are currently undergoing
            reconstruction. This presents an opportunity to develop and implement a plan
            concerning what CSL information should be available to the public and where
            access to information should be located. Public access to environmental
            information fosters awareness and results, and the EPA should continuously
            work to improve access to this information.




13-P-0432                                                                                           16
Recommendation

            We recommend that the Deputy Administrator:

                3.	 Develop guidance for the identification, presentation and management
                    of CSL information on the Web to include, but not be limited to:
                     
                    a.	 Providing information to the public that is complete, accurate, readily
                        available, and consistent across the EPA’s program offices and
                        regions.
                    b.	 Clearly defining the terms and categories of various types of CSLs
                        available to the public.

Agency Comments and OIG Evaluation

            The EPA agreed with the draft report’s message that the agency needs to
            consider an appropriate policy response to improve the administration of CSLs.
            The agency is seeking input from the assistant, associate and regional
            administrators in order to develop and implement the necessary improvements.

            The OIG agrees with the agency’s actions; however, milestone dates are needed
            for the development of the policy and improvements of CSLs.




13-P-0432                                                                                     17
                                Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                      POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                     BENEFITS (in $000s)

                                                                                                          Planned
    Rec.    Page                                                                                         Completion   Claimed    Agreed-To
    No.      No.                         Subject                        Status1     Action Official         Date      Amount      Amount

     1       11     Develop agencywide guidance for the monitoring        U       Deputy Administrator
                    and oversight of the agency’s CSLs.

     2       11     Review the EPA’s external CSLs to determine their     U       Deputy Administrator
                    cost efficiency.

     3       17     Develop guidance for the identification,              U       Deputy Administrator
                    presentation and management of CSL information
                    on the Web to include, but not be limited to:
                    a. Providing information to the public that is
                       complete, accurate, readily available, and
                       consistent across the EPA’s program offices
                       and regions.
                    b. Clearly defining the terms and categories of
                       various types of CSLs available to the public.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0432                                                                                                                               18
                                                                                Appendix A
 
                    Appendix Glossary of Terms
 
 
    Abbreviation/
     Acronym                                        Definition
ACRES               Assessment Cleanup and Redevelopment Exchange System
AFS                 Air Facility System
AIRS                Aerometric Information Retrieval System
AMTIC               Ambient Monitoring Technical Information Center
AQS                 Air Quality System
ASBO                Asbestos and Small Business Ombudsman
BAC                 Business Assistance Center
BACT                Best Available Control Technology
CATC                Clean Air Technology Center
CEAM                Center for Exposure Assessment Modeling
CHIEF               Clearinghouse for Inventories and Emissions Factors
EFIN                Environmental Finance Information Network
EISC                Environmental Information Service Center
EJ                  Environmental Justice
EMC                 Emissions Measurement Center
eNOI                Electronic Notice of Intent
EPCRA               Emergency Planning and Community Right-to-Know Act
FTEs                Full-Time Equivalents
GWERIC              Ground Water and Ecosystem Restoration Information Center
HQ                  Headquarters
ICIS                Integrated Compliance Information System
IRIS                Integrated Risk Information System
LAER                Lowest Achievable Emission Rate
MICE                Methods Information Communication Exchange
MRWMD               Materials Recovery & Waste Management Division
NCEE                National Center for Environmental Economics
NCEA                National Center for Environmental Assessment
NERL                National Exposure Research Laboratory
NLIC                National Lead Information Center
NSCEP               National Service Center for Environmental Publications
OA                  Office of the Administrator
OAQPS               Office of Air Quality Planning & Standards
OAR                 Office of Air and Radiation
OCFO                Office of the Chief Financial Officer
OCSPP               Office of Chemical Safety and Pollution Prevention
OECA                Office of Compliance and Enforcement
OPP                 Office of Pesticide Programs
OPPT                Office of Pollution Prevention and Toxics
ORCR                Office of Resource Conservation and Recovery
ORD                 Office of Research and Development
ORPL                Office of the Regional Public Liaison
OSBP                Office of Small Business Programs
OSRTI               Office of Superfund Remediation and Technology Innovation
OSWER               Office of Solid Waste and Emergency Response
OTAQ                Office of Transportation and Air Quality
PPIC                Pollution Prevention Information Clearinghouse

13-P-0432                                                                                    19
 Abbreviation/
  Acronym                                         Definition
PAYT             Pay-As-You-Throw
RACT             Reasonably Available Control Technology
RBLC             Reasonably Available Control Technology/ Best Available Control Technology/
                 Lowest Achievable Emission Rate Clearinghouse
RMP              Risk Management Program
SCRAM            Support Center for Regulatory Atmospheric Modeling
SEEs             Senior Environmental Employees
SEMS             Superfund Enterprise Management System
STORET           STOrage and RETrieval
TSCA             Toxic Substances Control Act
TRI              Toxics Release Inventory




13-P-0432                                                                                      20
                                                                                 Appendix B-1

                   Monitoring Y/N – 41 External CSLs

  Region/Program office                  Customer service line                          Y/N
Region 3                  Customer Service Hotline                                       Y
Region 2                  Office of the Regional Public Liaison (ORPL) Hotline           Y
OSW ER                    Superfund Enterprise Management System (SEMS)                  Y
                          Reference Desk
OCFO                      Environmental Finance Information Network (EFIN)               Y
Region 3                  Business Assistance Center (BAC)                               Y
Region 1                  Customer Call Center                                           Y
Region 3                  Regional Public Information Center                             Y
OECA                      Integrated Compliance Information System (ICIS)                Y
                          Help Desk
Region 2                  Citizen Complaint Hotline                                      Y
OSW ER/OSRTI              Superfund, TRI, EPCRA, RMP & Oil Information Center            Y
OAR/OAQPS                 Support Center for Regulatory Atmospheric Modeling             Y
                          (SCRAM)
Region 8                  Environmental Information Service Center (EISC)                Y
Office of W ater          eNOI Help Desk                                                 Y
Region 7                  Call Center                                                    Y
Region 6 Prevention and   Spill response or hotline                                      Y
Response Branch
Region 7                  24-Hour Spill Line                                             Y
OSW ER-Office of          Assessment Cleanup and Redevelopment Exchange                  Y
Brownfield’s and Land     System (ACRES) Help Desk
Revitalization
OAR/OAQPS                 Reasonably Available Control Technology (RACT)/Best            Y
                          Available Control Technology (BACT)/Lowest Achievable
                          Emission Rate (LAER) Clearinghouse
OAR/OTAQ                  SmartWay Help Line                                             Y
OAR/OAQPS                 Emissions Measurement Center (EMC) Hotline                     Y


                                  Continued on next page




 13-P-0432                                                                                      21
                                                                                                          Appendix B-1

                             Monitoring Y/N – 41 External CSLs

    Region/Program office                                                  Customer service line                Y/N
OCSPP/OPPT                                        National Lead Information Center (NLIC)                        Y
OAR                                               Energy Star Hotline                                            Y
Office of Water                                   Safe Drinking Water Hotline                                    Y
OCSPP/OPPT                                        Toxic Substances Control Act (TSCA) Hotline                    Y
ORD/NCEA                                          Integrated Risk Information System (IRIS) Hotline              Y
OA/OSBP                                           Asbestos and Small Business Ombudsman (ASBO)                   Y
                                                  Hotline
Office of Water                                   STOrage and RETrieval (STORET) Help Desk                       Y
ORD/NERL                                          Center for Exposure Assessment Modeling (CEAM)                 Y
OAR                                               Imported Vehicles and Engines Public Help Line                 Y
OCSPP/OPPT                                        Pollution Prevention Information Clearinghouse (PPIC)          Y
OECA                                              Environmental Justice Hotline (EJ Hotline)                     Y
OAR/OAQPS                                         Clearinghouse for Inventories and Emissions Factors            Y
                                                  (CHIEF) 1/
HQ-OSWER/ORCR/MRWMD                               Methods Hotline (MICE)                                         Y
HQ-OCSPP/OPP                                      Endangered Species                                             Y
                                                  Protection Bulletin
Region 3                                          Superfund Hotline                                              N
OA/(NCEE)                                         National Center for Environmental Economics,                   N
                                                  Economics Library
Region 2                                          Public Affairs Hotline                                         N
OAR                                               Acid Rain Hotline                                              N
OAR/OAQPS                                         Clean Air Technology Center (CATC)                             N
OAR                                               Stratospheric Ozone Protection Information Hotline             N
OAR/OAQPS                                         Ambient Monitoring Technical Information Center (AMTIC)        N
                                                  CSLs being monitored - 34                                     82.93%
                                                  CSLs not being monitored - 7                                  17.07%
                                                                          Total                                100.00%
1/ On September 6, 2013, the Agency notified us that this CSL no longer existed.

Source: OIG analysis of the EPA’s response to OIG questionnaire.




13-P-0432                                                                                                             22
                                                                                                                  Appendix B-2

                              Monitoring Y/N – 21 External CSLs
                                  Operated by Contractors
               Region/Program office                                                Customer service line              Monitoring
                                                                                                                         Y/N
ORD/NCEA                                                                Integrated Risk Information System (IRIS)          Y
                                                                        Hotline
OCSPP/OPPT                                                              Pollution Prevention Information                   Y
                                                                        Clearinghouse (PPIC)
Office of W ater                                                        STOrage and RETrieval (STORET) Help                Y
                                                                        Desk
OCFO                                                                    Environmental Finance Information Network          Y
                                                                        (EFIN)
OSW ER-Office of Brownfield’s and Land                                  Assessment Cleanup and Redevelopment               Y
Revitalization                                                          Exchange System (ACRES) Help Desk
OAR                                                                     Energy Star Hotline                                Y
OCSPP/OPPT                                                               Toxic Substances Control Act (TSCA) Hotline       Y

OAR                                                                     Imported Vehicles and Engines Public               Y
                                                                        Help Line
OAR/OAQPS                                                               Clearinghouse for Inventories and                  Y
                                                                        Emissions Factors (CHIEF) 1/
Office of W ater                                                        Safe Drinking Water Hotline                        Y
OCSPP/OPPT                                                              National Lead Information Center (NLIC)            Y
ORD/NERL                                                                Center for Exposure Assessment Modeling            Y
                                                                        (CEAM)
Region 3                                                                Customer Service Hotline                           Y
Region 7                                                                Call Center                                        Y
Office of W ater                                                        eNOI Help Desk                                     Y
OSW ER                                                                  Superfund Enterprise Management System             Y
                                                                        (SEMS) Reference Desk
OAR/OAQPS                                                               Reasonably Available Control Technology            Y
                                                                        (RACT)/Best Available Control Technology
                                                                        (BACT)/Lowest Achievable Emission Rate
                                                                        (LAER) Clearinghouse
OAR/OAQPS                                                               Support Center for Regulatory Atmospheric          Y
                                                                        Modeling (SCRAM)
OSWER/OSRTI                                                             Superfund, TRI, EPCRA, RMP & Oil                   Y
                                                                        Information Center
HQ-OSWER/ORCR/MRWMD                                                     Methods Hotline (MICE)                             Y
Region 8                                                                Environmental Information Service Center           Y
                                                                        (EISC)
                                                                        CSLs monitored - 21                             100.00%
                                                                        CSLs not monitored - 0                           0.00%
                                                                                            Total                       100.00%
 1/ On September 6, 2013, the Agency notified us that this CSL no longer existed.

 Source: OIG analysis of the EPA’s response to OIG questionnaire.



 13-P-0432                                                                                                                     23
                                                                                          Appendix B-3

                    Monitoring Y/N – 20 External CSLs
                       Non-Contractor Operated
        Region/Program office                            Customer service line               Monitoring
                                                                                               Y/N
 OECA                                      Environmental Justice Hotline (EJ Hotline)            Y
 Region 6 Prevention and Response          Spill Response or Hotline                             Y
 Branch
 OA/OSBP                                   Asbestos and Small Business Ombudsman                 Y
                                           (ASBO) Hotline
 Region 7                                  24-Hour Spill Line                                    Y
 Region 1                                  Customer Call Center                                  Y
 Region 2                                  Citizen Complaint Hotline                             Y
 OECA                                      Integrated Compliance Information System              Y
                                           (ICIS) Help Desk
 OAR/OAQPS                                 Emissions Measurement Center (EMC) Hotline            Y
 Region 3                                  Regional Public Information Center                    Y
 Region 2                                  Office of the Regional Public Liaison (ORPL)          Y
                                           Hotline
 Region 3                                  Business Assistance Center (BAC)                      Y
 OAR/OTAQ                                  SmartWay Help Line                                    Y
 HQ-OCSPP/OPP                              Endangered Species Protection Bulletin                Y
                                           (Pesticides) Request Line
 HQ-(NCEE)                                 National Center for Environmental Economics,          N
                                           Economics Library
 Region 3                                  Superfund Hotline                                     N
 Region 2                                  Public Affairs Hotline                                N
 OAR/OAQPS                                 Ambient Monitoring Technical Information              N
                                           Center (AMTIC)
 OAR/OAQPS                                 Clean Air Technology Center (CATC)                    N
 OAR                                       Stratospheric Ozone Protection Information            N
                                           Hotline
 OAR                                       Acid Rain Hotline                                     N
                                           CSLs monitored - 13                                65.00%
                                           CSLs not monitored - 7                             35.00%
                                                                    Total                     100.00%
 Source: OIG analysis of the EPA’s response to OIG questionnaire.




13-P-0432                                                                                               24
                                                                                        Appendix C

            Evaluating Success Y/N – 41 External CSLs
                                                                                           Evaluating
        Region/Program office                        Customer service line                  success
                                                                                              Y/N
 Region 2                                Citizen Complaint Hotline                             Y
 Region 2                                Office of the Regional Public Liaison (ORPL)          Y
                                         Hotline
 OSWER/OSRTI                             Superfund, TRI, EPCRA, RMP & Oil Information          Y
                                         Center
 OSW ER                                  Superfund Enterprise Management System                Y
                                         (SEMS) Reference Desk
 Region 6 Prevention and Response        Spill Response or Hotline                             Y
 Branch
 Region 8                                Environmental Information Service Center (EISC)       Y
 OCSPP/OPPT                              Toxic Substances Control Act (TSCA) Hotline           Y
 ORD/NCEA                                Integrated Risk Information System (IRIS)             Y
                                         Hotline
 Office of Water                         STOrage and RETrieval (STORET) Help Desk              Y
 OECA                                    Environmental Justice Hotline (EJ Hotline)            Y
 Region 1                                Customer Call Center                                  N
 Region 3                                Superfund Hotline                                     N
 Region 3                                Business Assistance Center (BAC)                      N
 Region 3                                Customer Service Hotline                              N
 Region 3                                Regional Public Information Center                    N
 HQ-(NCEE)                               National Center for Environmental Economics,          N
                                         Economics Library
 OSW ER-Office of Brownfield’s and       Assessment Cleanup and Redevelopment                  N
 Land Revitalization                     Exchange System (ACRES) Help Desk
 Region 2                                Public Affairs Hotline                                N
 Office of W ater                        eNOI Help Desk                                        N
 OECA                                    Integrated Compliance Information System (ICIS)       N
                                         Help Desk
 Region 7                                Call Center                                           N

                                     Continued on next page




13-P-0432                                                                                          25
                                                                                                                 Appendix C

                Evaluating Success Y/N – 41 External CSLs
                                                                                                                   Evaluating
          Region/Program office                                                    Customer service line            success
                                                                                                                      Y/N
Region 7                                                    24-Hour Spill Line                                         N
OAR/OAQPS                                                   Reasonably Available Control Technology                    N
                                                            (RACT)/Best Available Control Technology
                                                            (BACT)/Lowest Achievable Emission Rate (LAER)
                                                            Clearinghouse
OAR/OAQPS                                                   Support Center for Regulatory Atmospheric Modeling         N
                                                            (SCRAM)
HQ-OSWER/ORCR/MRWMD                                         Methods Hotline (MICE)                                     N
HQ-OCSPP/OPP                                                Endangered Species Protection Bulletin (Pesticides)        N
                                                            Request Line
ORD/NERL                                                    Center for Exposure Assessment Modeling (CEAM)             N
Office of W ater                                            Safe Drinking Water Hotline                                N
OCSPP/OPPT                                                  National Lead Information Center (NLIC)                    N
OCSPP/OPPT                                                  Pollution Prevention Information Clearinghouse             N
                                                            (PPIC)
OAR                                                         Acid Rain Hotline                                          N
OAR                                                         Stratospheric Ozone Protection Information Hotline         N
OAR                                                         Energy Star Hotline                                        N
OA/OSBP                                                     Asbestos and Small Business Ombudsman (ASBO)               N
                                                            Hotline
OAR/OTAQ                                                    SmartWay Help Line                                         N
OAR/OAQPS                                                   Ambient Monitoring Technical Information Center            N
                                                            (AMTIC)
OAR/OAQPS                                                   Emissions Measurement Center (EMC) Hotline                 N
OAR/OAQPS                                                   Clean Air Technology Center (CATC)                         N
OAR/OAQPS                                                  Clearinghouse for Inventories and Emissions Factors         N
                                                           (CHIEF) 1/
OAR                                                        Imported Vehicles and Engines Public Help Line              N
OCFO                                                       Environmental Finance Information Network (EFIN)            N
                                                           CSLs evaluating success - 10                              24.39%
                                                           CSLs not evaluating success - 31                          75.61%
                                                                                           Total                    100.00%
1/ On September 6, 2013, the Agency notified us that this CSL no longer existed.

Source: OIG analysis of the EPA’s response to OIG questionnaire.




13-P-0432                                                                                                                  26
                                                                                 Appendix D

                   Ensuring Accuracy of Information
                       Y/N – 41 External CSLs
                                                                                 Ensuring
     Region/Program office                  Customer service line               information
                                                                               accuracy Y/N
Region 3                        Regional Public Information Center                   Y
Office of W ater                eNOI Help Desk                                      Y
Region 7                        24-Hour Spill Line                                  Y
Region 8                        Environmental Information Service Center            Y
                                (EISC)
OECA                            Integrated Compliance Information System            Y
                                (ICIS) Help Desk
Region 2                        Office of the Regional Public Liaison (ORPL)        Y
                                Hotline
Region 7                        Call Center                                         Y
Region 3                        Business Assistance Center (BAC)                    Y
Region 2                        Citizen Complaint Hotline                           Y
Region 6 Prevention and         Spill Response or Hotline                           Y
Response Branch
Region 3                        Customer Service Hotline                            Y
OAR/OAQPS                       Support Center for Regulatory Atmospheric           Y
                                Modeling (SCRAM)
Region 3                        Superfund Hotline: 1-800-553-2509                   Y
OSW ER                          Superfund Enterprise Management System              Y
                                (SEMS) Reference Desk
OSW ER-Office of Brownfield’s   Assessment Cleanup and Redevelopment                Y
and Land Revitalization         Exchange System (ACRES) Help Desk
OAR                             Stratospheric Ozone Protection Information          Y
                                Hotline
HQ-OSWER/ORCR/MRWMD             Methods Hotline (MICE)                              Y
OECA                            Environmental Justice Hotline (EJ Hotline)          Y
OCFO                            Environmental Finance Information Network           Y
                                (EFIN)
ORD/NERL                        Center for Exposure Assessment Modeling             Y
                                (CEAM)

                                      Continued on next page




13-P-0432                                                                                     27
                                                                                                           Appendix D

                                  Ensuring Accuracy of Information
                                      Y/N – 41 External CSLs
                                                                                                             Ensuring
          Region/Program office                                            Customer service line           information
                                                                                                          accuracy Y/N
   Office of Water                                       STOrage and RETrieval (STORET) Help Desk               Y
   OSWER/OSRTI                                           Superfund, TRI, EPCRA, RMP & Oil                      Y
                                                         Information Center
   OAR/OAQPS                                             Clearinghouse for1/Inventories and Emissions          Y
                                                         Factors (CHIEF)
   OCSPP/OPPT                                            National Lead Information Center (NLIC)               Y
   OCSPP/OPPT                                            Pollution Prevention Information Clearinghouse        Y
                                                         (PPIC)
   OCSPP/OPPT                                            Toxic Substances Control Act (TSCA) Hotline           Y
   OAR                                                   Imported Vehicles and Engines Public Help Line        Y
   OAR/OTAQ                                              SmartWay Help Line                                    Y
   OA/OSBP                                               Asbestos and Small Business Ombudsman                 Y
                                                         (ASBO) Hotline
   Office of Water                                       Safe Drinking Water Hotline                           Y
   ORD/NCEA                                              Integrated Risk Information System (IRIS)             Y
                                                         Hotline
   OAR                                                   Energy Star Hotline                                   Y
   OAR/OAQPS                                             Emissions Measurement Center (EMC) Hotline            Y
   OAR/OAQPS                                             Ambient Monitoring Technical Information              N
                                                         Center (AMTIC)
   HQ-OCSPP/OPP                                          Endangered Species Protection Bulletin                N
                                                         (Pesticides) Request Line
   OAR                                                   Acid Rain Hotline                                     N
   OAR/OAQPS                                             Clean Air Technology Center (CATC)                    N
   Region 1                                              Customer Call Center                                  N
   OAR/OAQPS                                             Reasonably Available Control Technology               N
                                                         (RACT)/Best Available Control Technology
                                                         (BACT)/Lowest Achievable Emission Rate
                                                         (LAER) Clearinghouse
   Region 2                                              Public Affairs Hotline                                N
   OA/(NCEE)                                             National Center for Environmental Economics,          N
                                                         Economics Library
                                                         CSLs ensuring customer satisfaction - 33           80.49%
                                                         CSLs not ensuring customer satisfaction - 8        19.51%
                                                                                   Total                    100.00%

1/ On September 6, 2013, the Agency notified us that this CSL no longer existed.

Source: OIG analysis of the EPA’s response to OIG questionnaire.




   13-P-0432                                                                                                             28
                                                                                                                                   Appendix E-1
                               Cost Per Inquiry – 41 External CSLs
                                                                                           Volume                     Costs1/             Cost per
    Region/Program                          Customer service line                          per year                                       inquiry
         office                                                                                                             FY 2011
Region 2                            Office of the Regional Public                                     676                  Not provided      Unable to
                                    Liaison (ORPL) Hotline                                                                                   calculate
Region 1                            Customer Call Center                                           3,900                         1 FTE       Unable to
                                                                                                                                             calculate
Region 3                            Regional Public Information                                    2,800                        1 SEE        Unable to
                                    Center                                                                                                   calculate
OECA                                Integrated Compliance                                          1,653                         1 FTE       Unable to
                                    Information System (ICIS)                                                                                calculate
                                    Help Desk
Region 2                            Citizen Complaint Hotline                                         615                      .25 FTE      Unable to
                                                                                                                                            calculate
OSWER/OSRTI                         Superfund, TRI, EPCRA, RMP &                        Not provided                           943,650      Unable to
                                    Oil Information Center                                                                                  calculate
OAR/OAQPS                           Support Center for Regulatory                            Various                            10,000      Unable to
                                    Atmospheric Modeling (SCRAM)                            activities                                      calculate
OAR/OTAQ                            SmartWay Help Line                                  Not provided                       Not provided     Unable to
                                                                                                                                            calculate
OAR                                 Acid Rain Hotline                                                 240                  Not provided     Unable to
                                                                                                                                            calculate
OAR/OAQPS                           Clean Air Technology Center                                  17,500                       EPA staff     Unable to
                                    (CATC)                                                                                                  calculate
OAR                                 Stratospheric Ozone Protection                                    840                        1 SEE      Unable to
                                    Information Hotline                                                                                     calculate
OAR/OAQPS                           Emissions Measurement Center                                      240                      .25 FTE      Unable to
                                    (EMC) Hotline                                                                                           calculate
OAR/OAQPS                           Ambient Monitoring Technical                                      150                      .25 FTE      Unable to
                                    Information Center (AMTIC)                                                                              calculate
ORD/NCEA                            Integrated Risk Information                                       495                      203,750    $   411.62
                                    System (IRIS) Hotline
HQ-(NCEE)                           National Center for                                               129                       32,000         248.06
                                    Environmental Economics,
OCSPP/OPPT                          Pollution Prevention Information                                  312                       73,016         234.03
                                    Clearinghouse (PPIC)
Office of W ater    STOrage and RETrieval                                                          1,000                       136,225         136.23
                    (STORET) Help Desk
HQ-OSW ER/ORCR/MR Methods Hotline (MICE)                                                           1,476                       126,500          85.70
WMD
OCFO                Environmental Finance                                                               91                       6,553          72.01
                    Information Network (EFIN)
OSW ER-Office of    Assessment Cleanup and                                                            624                       40,000          64.10
Brownfield’s & Land Redevelopment Exchange
Revitalization      System (ACRES) Help Desk
    1/ Costs to operate CSLs reported by the agency. The elements of costs included may vary by region or program office

                                                                Continued on next page


    13-P-0432                                                                                                                                  29
                                                                                                                                       Appendix E-1
                              Cost Per Inquiry – 41 External CSLs
                                                                                                                                       1/
                                                                                             Volume                            Costs          Cost per
     Region/                             Customer service line                                                                                  inquiry
  Program office                                                                                                           FY 2011
OECA                              Environmental Justice Hotline                                            960             $    39,500           $41.15
                                  (EJ Hotline)
OAR                               Energy Star Hotline                                                  24,277                    884,913          36.45
OCSPP/OPPT                        Toxic Substances Control Act                                          7,484                    263,897          35.26
                                  (TSCA) Hotline
Region 6 Prevention               Spill Response or Hotline                                             5,066                    138,424          27.32
and Response Branch
OA/OSBP              Asbestos and Small Business                                                        7,200                    165,434          22.98
                     Ombudsman (ASBO) Hotline
OAR                  Imported Vehicles and Engines                                                      4,004                     91,629          22.88
                     Public Help Line
OAR/OAQPS           Clearinghouse for Inventories and                                                      760                    17,000          22.37
                    Emissions Factors (CHIEF) 2/
Region 7             24-Hour Spill Line                                                                 3,000                     62,942          20.98
OCSPP/OPPT                        National Lead Information                                            74,062                   1,457,875         19.68
                                  Center (NLIC)
Office of Water                   Safe Drinking Water Hotline                                          18,321                    360,444          19.67
ORD/NERL                          Center for Exposure                                                   9,938                    116,000          11.67
                                  Assessment Modeling (CEAM)
Region 3                          Customer Service Hotline                                              7,560                     85,000          11.24
Region 7                          Call Center                                                          16,706                    139,812            8.37
Office of Water                   Electronic Notice of Intent                                          21,840                    142,007            6.50
                                  (eNOI) Help Desk
OSW ER                            Superfund Enterprise                                                  2,600                     14,016            5.39
                                  Management System (SEMS)
                                  Reference Desk
HQ-OCSPP/OPP                      Endangered Species Protection                                              50                         240         4.80
                                  Bulletin (Pesticides) Request Line
Region 8                          Environmental Information                                            39,251                    170,264            4.34
                                  Service Center (EISC)
Region 3                          Superfund Hotline                                                        150                          243         1.62
Region 3                          Business Assistance Center                                               350                          258         0.74
                                  (BAC)
OAR/OAQPS                         Reasonably Available Control                                         89,100                     20,000            0.22
                                  Technology (RACT)/Best
                                  Available Control Technology
                                  (BACT)/Lowest Achievable
                                  Emission Rate (LAER)
                                  Clearinghouse
Region 2                          Public Affairs Hotline                                                2,166                         437           0.20
                                                 Total                                                 367,586             $     5,742,029

   1/ Costs to operate CSLs reported by the agency. The elements of costs included may vary by region or program office

   2/ On September 6, 2013, the Agency notified us that this CSL no longer existed.



Source: OIG analysis of the EPA’s response to OIG questionnaire.



   13-P-0432                                                                                                                                      30
                                                                                                                                             Appendix E-2
         Cost Per Inquiry – 21 CSLs Operated by Contractors
                                                                                                         Volume                   Costs 1/                 Cost per
Region /Program office                               Customer service line                               per year                                          inquiry
                                                                                                                                   FY 2011
ORD/NCEA                                   Integrated Risk Information System                                                 $     203,750              $      411.62 2/
                                           (IRIS) Hotline                                                           495
OCSPP/OPPT                                 Pollution Prevention Information                                                           73,016                       234.03
                                           Clearinghouse (PPIC)                                                     312
Office of Water                            STOrage and RETrieval (STORET)                                                            136,225                       136.23
                                           Help Desk                                                             1,000
HQ-                                        Methods Information                                                                       126,500                         85.70
OSWER/ORCR/MRWMD                           Communication Exchange (MICE)                                         1,476
OCFO                                       Environmental Finance Information                                        91                  6,553                        72.01
                                           Network (EFIN)
OSWER-Office of                            Assessment Cleanup and                                                                     40,000                         64.10
Brownfields and Land                       Redevelopment Exchange System                                            624
Revitalization                             (ACRES) Help Desk
OAR                                        Energy Star Hotline                                                 24,277                884,913                         36.45
OCSPP/OPPT                                 Toxic Substances Control Act                                                              263,897                         35.26
                                           (TSCA) Hotline                                                        7,484
OAR                                        Imported Vehicles and Engines                                                              91,629                         22.88
                                           Public Help Line                                                      4,004
OAR/OAQPS                                  Clearinghouse for Inventories and                                                          17,000                         22.37
                                           Emissions Factors (CHIEF) 3/                                             760
OCSPP/OPPT                                 National Lead Information Center                                                       1,457,875                          19.68
                                           (NLIC)                                                              74,062
Office of Water                            Safe Drinking Water Hotline                                         18,321                360,444                        19.67
ORD/NERL                                   Center for Exposure Assessment                                                            116,000                        11.67
                                           Modeling (CEAM)                                                      9,938
Region 3                                   Customer Service Hotline                                             7,560                 85,000                         11.24
Region 7                                   Call Center                                                         16,706                139,812                          8.37
Office of Water                            Electronic Notice of Intent (eNOI)                                  21,840                142,007                          6.50
                                           Help Desk
OSWER                                      Superfund Enterprise Management                                                            14,016                          5.39
                                           System (SEMS) Reference Desk                                          2,600
Region 8                                   Environmental Information Service                                                                                          4.34
                                           Center (EISC)                                                       39,251                170,264
OAR/OAQPS                                  Reasonably Available Control                                                               20,000                          0.22
                                           Technology (RACT)/Best Available                                    89,100
                                           Control technology (BACT)/Lowest
                                           Achievable Emission Rate (LAER)
                                           Clearinghouse
OAR/OAQPS                                  Support Center for Regulatory                               Not specific                   10,000                            N/A
                                           Atmospheric Modeling (SCRAM)                                    enough
OSWER/OSRTI                                Superfund, TRI, EPCRA, RMP & Oil                           Not provided                   943,650                            N/A
                                           Information Center
                                           Subtotal – 21 external CSLs                                       319,901            $5,302,551
                                           operated by contractors
1/ Costs to operate CSLs reported by the agency. The elements of costs included may vary by region or program office.

 2/ On September 6, 2013, the Agency stated that the cost per inquiry of $411.62 is misleading as the CSL cost of $203,750 represents several contractor functions. The 

 Agency does not have data that allow it to provide an amount that is attributable specifically to answering inquiries.

 3/ On September 6, 2013, the Agency notified us that this CSL no longer existed.


 Source: OIG analysis of the EPA’s response to OIG questionnaire.



     13-P-0432                                                                                                                                                     31
                                                                                                                                      Appendix E-3

    Cost Per Inquiry – 20 CSLs Non-Contractor Operated
                                                                                    Volume per                      Cost1/             Cost per inquiry
Region/Program                       Customer service line                             year                                             (cost/volume)
     office                                                                                                           FY 2011
OA/NCEE                      National Center for                                                  129               $     32,000        $       248.06
                             Environmental Economics,
                             Economics Library
OECA                         Environmental Justice Hotline                                       960                        39,500               41.15
R6 Prevention and            Spill Response or Hotline                                         5,066                       138,424               27.32
Response Branch
OA/OSBP                      Asbestos and Small Business                                       7,200                       165,434                22.98
                             Ombudsman (ASBO) Hotline
Region 7                     24 Hour Spill Line                                                3,000                        62,942               20.98
HQ-OCSPP/OPP                 Endangered Species Protection                                        50                           240                4.80
                             Bulletin (Pesticides) Request
                             Line
Region 3                     Superfund Hotline                                                    150                          243                 1.62
Region 3                     Business Assistance Center                                           350                          258                 0.74
                             (BAC)
Region 2                     Public Affairs Hotline                                            2,166                           437                 0.20
Region 1                     Customer Call Center                                              3,900                         1 FTE                 N/A
Region 2                     Citizen Complaint Hotline                                          615                        .25 FTE                  N/A
OECA                         ICIS Help Desk                                                    1,653                         1 FTE                  N/A
OAR/OAQPS                    Ambient Monitoring Technical                                        150                       .25 FTE                  N/A
                             Information Center (AMTIC)
OAR/OAQPS                    The Emissions Measurement                                            240                      .25 FTE                 N/A
                             Center (EMC) Hotline
OAR/OAQPS                    Clean Air Technology Center                                     17,500                       EPA staff                N/A
                             (CATC)
OAR                          Stratospheric Ozone Protection                                       840                        1 SEE                 N/A
                             Information Hotline
Region 3                     Regional Public Information                                       2,800                         1 SEE                 N/A
                             Center
Region 2                     Office of the Regional Public                                        676              Not provided                    N/A
                             Liaison (ORPL) Hotline
OAR                          Acid Rain Hotline                                               240                   Not provided                    N/A
OAR/OTAQ                     SmartWay Help Line                                     Not provided                   Not provided                    N/A
                             Subtotal - 20 CSLs                                           47,685                       439,478
                             non-contractor operated
                                         Total for 41 externals                             367,586          $            5,742,029
  1/ Costs to operate CSLs reported by the agency. The elements of costs included may vary by region or program office.

  Source: OIG analysis of the EPA’s response to OIG questionnaire.




  13-P-0432                                                                                                                                       32
                                                                                                                                    Appendix E-4

     Summary Costs of 21 CSLs Operated by Contractors
                                                                            Volume
                                                           No. of           per year              Percentage                 FY 2011      Percentage
           Description                                     CSLs             FY 2011                of volume                  Cost1/        of cost
 CSLs provided volume and costs                                19             319,901                  87.03%               $ 4,348,901       75.74%
 CSLs no volume provided                                           2     Not provided                           N/A            953,650       16.61%
    Subtotal CSLs                                                21             319,901                   87.03%             5,302,551       92.35%
    operated by contractors
Source: OIG analysis of the EPA’s response to OIG questionnaire.


                                                                                                                                    Appendix E-5

       Summary Costs of 20 CSLs Non-Contractor Operated
                                                                           Volume
                                                         No. of            per year             Percentage              FY 2011 Cost      Percentage
                                                                                                                               1/
          Description                                    CSLs              FY 2011               of volume                                  of cost
CSLs provided with volume and                                  9               19,071                 5.19%             $      439,478          7.65%
costs
CSLs provided costs with SEEs                                     8              27,698                  7.62%           Not provided            N/A
and FTEs
CSLs no cost provided                                             2              916                     0.25%           Not provided            N/A
CSL neither volume nor costs                                      1     Not provided                        N/A          Not provided            N/A
provided
 Subtotal CSLs                                                  20               47,685                12.97%                  439,478         7.65%
 non-contractor operated
              Total                                             41             367,586               100.00%            $    5,742,029       100.00%
1/ Costs to operate CSLs reported by the agency. The included elements in costs may vary by region or program office.

Source: OIG analysis of the EPA’s response to OIG questionnaire.




  13-P-0432                                                                                                                                      33
                                                                                                       Appendix F

                                 External CSLs Listed on EPA’s
                                       National Website
                             Hotline/clearinghouse                                      Agency provided
                       (per the EPA’s national website)                              information to the OIG
 1         Acid Rain Hotline                                                         Yes
           Aerometric Information Retrieval System (AIRS) -
 2         Air Quality System (AQS)                                                   -                  No
           Aerometric Information Retrieval System (AIRS) -
 3         Air Facility System (AFS) Help Line                                       Yes                  -
           Ambient Monitoring Technology Information
 4         Center                                                                    Yes                  -
           Asbestos Ombudsman Hotline (part of the Small
 5         Business Ombudsman)
                                                                                     Yes                  -
           Center for Exposure Assessment Modeling
 6         (CEAM) Help Desk
                                                                                     Yes                  -
           Clean Air Technology Center (CATC) Information
 7         Line; formerly Control Technology Center                                  Yes                  -
           Clearinghouse for Inventories and Emission
 8         Factors (CHIEF) Help Desk1/                                               Yes                  -
 9         Compliance Assistance Centers                                             Yes                  -
 10        Emissions Measurement Center (EMC)                                        Yes                  -
           Endangered Species Protection Bulletin
                                                                                     Yes                  -
 11        (Pesticides) Request Line
 12        Energy Star                                                               Yes                  -
 13        Environmental Education Clearinghouse                                      -                  No
           Environmental Finance Information Network
 14        (EFIN)                                                                    Yes                  -
 15        Environmental Justice Hotline                                             Yes                  -
 16        EPA Enforcement Economic Models Help Line                                                     No
           EPA Imported Vehicles and Engines Public
                                                                                     Yes
 17        Help Line                                                                              
 18        EPA Test Methods                                                           -                  No
           Ground Water and Ecosystem Restoration
 19        Information Center (GWERIC)                                                -                  No
 20        Integrated Risk Information System (IRIS) Hotline                         Yes                  -
           Local Government Reimbursement Program
 21        Help Line                                                                  -                  No
           Methods Information Communication Exchange
 22        Service (MICE)                                                            Yes
                                                                                                  
 23        Mexico Border Hotline                                                      -                  No
 1/ On September 6, 2013, the Agency notified us that this CSL no longer existed.



                                                            Continued on next page




13-P-0432                                                                                                      34
                                                                                                Appendix F

                       External CSLs Listed on EPA’s
                             National Website
                      Hotline/clearinghouse                                  Agency provided
                (per the EPA’s national website)                          information to the OIG
        National Service Center for Environmental                          -                      No
  24    Publications (NSCEP) (formerly NCEPI)
  25    National Lead Information Center Hotline                          Yes                      -
  26    National Pesticide Information Center                              -                      No
  27    National Poison Control Hotline                                    -                      No
  28    National Radon Hotlines                                            -                      No
  29    National Small Flows Clearinghouse Hotline                         -                      No
  30    Ozone Protection Hotline                                          Yes
  31    Pay-As-You-Throw (PAYT) Help Line                                                         No
        Pollution Prevention Information Clearinghouse
  32    (PPIC)                                                            Yes
                                                                                          
        Reasonably Available Control Technology/ Best
        Available Control Technology/ Lowest Achievable                   Yes
  33    Emission Rate Clearinghouse (RBLC)                                                
  34    Safe Drinking Water Hotline                                       Yes
  35    Small Business Ombudsman Hotline                                   -                      No
  36    SmartWay Program Hotline                                          Yes
  37    Storet Water Quality System Hotline                               Yes
  38    Superfund Document Center                                          -                      No
  39    Superfund and EPCRA Call Center                                   Yes
        Toxics Release Inventory - Information Center
                                                                           -                      No
  40    Hotline
        Toxics Release Inventory – General Program
  41    Inquiries                                                          -                      No
  42    Toxic Substances Control Act (TSCA) Hotline                       Yes                      -
  43    Water Efficiency Clearinghouse: WaterWiser                         -                      No
  44    WasteWise Help Line                                               Yes                      -
                            Agency provided information                   26
                     Agency did not provide information                                           18

  Source: OIG analysis of the EPA’s response to the OIG questionnaire, and information from the “Hotlines and
  Clearinghouses” Web page.




13-P-0432                                                                                                       35
                                                                                              Appendix G-1

                       Cost of 18 External CSLs Not Listed
                           on EPA’s National Website
            Region/ Program office                         Customer service line              FY 2011 cost
                                                     Office of the Regional Public
Region 2                                             Liaison Hotline                               Not provided
Region 1                                             Customer Call Center                                1 FTE
                                                     Regional Public Information                         1 SEE
 Region 3                                            Center
 Office of Enforcement and Compliance                Integrated Compliance Information                   1 FTE
 Assurance (OECA)                                    System (ICIS) Help Desk
 Region 2                                            Citizen Complaint Hotline                         .25 FTE
 Region 8                                            Environmental Information Service
                                                     Center (EISC)                                     170,264
 Office of Water                                     Electronic Notice of Intent (eNOI)                142,007
                                                     Help Desk
 Region 7                                            Call Center                                       139,812
                                                     Spill response or hotline
 Region 6 Prevention and Response Branch                                                               138,424
 Region 3                                            Customer Service Hotline                           85,000
 Region 7                                            24-Hour Spill Line                                 62,942
 OSWER-Office of Brownfields and Land                Assessment Cleanup and
 Revitalization                                      Redevelopment Exchange System                      40,000
                                                     (ACRES) Help Desk
 OA/NCEE                                             National Center for Environmental                  32,000
                                                     Economics, Economics Library
 OSWER                                               Superfund Enterprise                               14,016
                                                     Management System Reference
                                                     Desk
 OAR/OAQPS                                           Support Center for                                 10,000
                                                     Regulatory Atmospheric Modeling
                                                     (SCRAM)

Region 2                                             Public Affairs Hotline                                  437
                                                     Business Assistance Center
Region 3                                             (BAC)                                                   258
Region 3                                             Superfund Hotline                                       243
                                                                                 Total cost        $   835,403
Source: Information provided by the regions and headquarters program offices.




   13-P-0432                                                                                                 36
                                                                                            Appendix G-2

                     Two External CSLs Not Readily
                   Available on EPA Regional Websites
            Region/Program office                       Customer service line           Costs for FY 2011
                                                   Office of the Regional Public
 Region 2                                          Liaison Hotline                            Not provided
 Region 6 Prevention and Response Branch           Spill Response or Hotline                      138,424
                                                                           Total cost         $   138,424
Source: Information provided by the regions and headquarters program offices.




 13-P-0432                                                                                                  37
                                              Appendix H

            Agency Comments on Draft Report




13-P-0432                                             38
13-P-0432   39
                                                                                Appendix I


                                    Distribution
Office of the Administrator
Deputy Administrator
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Assistant Administrator and Chief Information Officer, Office of Environmental Information
Director, Office of Regional Operations
Director, Office of Acquisition Management, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of Environmental Information




13-P-0432                                                                               40
